    U.S. Department of the Interior
    Office of Inspector General



i




                AUDIT REPORT


                FOLLOWUP OF
      RECOMMENDATIONS RELATING TO
    PERSONNEL MANAGEMENT PRACTICES,
          DIVISION OF PERSONNEL,
    GOVERNMENT OF THE VIRGIN ISLANDS

                  REPORT NO. 99-I-365
                     MARCH 1999
                                                                              V-IN-VIS-004-98

              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240




Honorable Charles W. Tumbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject: Audit Report on Followup of Recommendations Relating to Personnel
          Management Practices, Division of Personnel, Government of the Virgin Islands
          (No. 9 9 - I - 3 6 5 )

Dear Governor Turnbull:

This report presents the results of our follow-up review of recommendations contained in the
July 1992 survey report entitled “Personnel Management Practices, Division of Personnel,
Government of the Virgin Islands” (No. 92-I-1086) (see Prior Audit Coverage). The
objective of this review was to determine whether (1) the Virgin Islands Government
satisfactorily implemented recommendations made in the 1992 report and any new
recommendations were warranted and (2) the Early Retirement Incentive, Training and
Promotion Act of 1994 (the Early Retirement Act) was effective in decreasing the number
of Government employees.

We found that the Government had not implemented four of the six recommendations
included in the prior report and had not complied with the work force reduction and
financing requirements of the Early Retirement Act. Specifically:

         - Although the Division of Personnel took action to develop and implement rules and
regulations for the maintenance and security of official personnel files, the Government did
not (1) take action to amend the Government Reorganization and Consolidation Act of 1987
to remove a conflict that allowed the Governor to hire individuals into unclassified (exempt)
positions that did not meet the requirements of the Personnel Merit System, (2) develop and
implement rules and regulations to restrict the use of unclassified hiring and personal
services contracts to fill positions that should have been a part of the classified service under
the Personnel Merit System, and (3) review and update all entrance examinations used to
determine the qualifications of applicants for positions in the classified service.

        - Although 567 employees in the Government’s Executive Branch elected to retire
under the provisions of the Early Retirement Incentive, Training and Promotion Act of 1994,
the Government did not reduce the size of the Executive Branch work force by a
commensurate number of permanent positions, which would have generated potential
savings in annual payroll costs of at least $16 million, including fringe benefits.
Additionally, the Government and its independent instrumentalities had not paid the
Government Employees’ Retirement System about $8.3 million in additional contributions
needed to fund the early retirements.
To address these issues, we made two recommendations concerning the prior survey report
and two recommendations concerning the Early Retirement Act to you, as the Governor of
the Virgin Islands, and one recommendation concerning the prior audit report to the
Legislature of the Virgin Islands.

In your February 26,1999, response (Appendix 3) to the draft report, you addressed in detail
the recommendations contained in our July 1992 report on the Division of Personnel, which
are summarized in Appendix 2. In addressing the prior report’s recommendations, your
response in effect adequately addressed Recommendation A.2 in our current report.
However, the response did not address Recommendations A.3, B.l, or B.2. Based on the
response, we consider Recommendation A.2 resolved but not implemented and
Recommendations A.3, B.l, and B.2 unresolved. Accordingly, Recommendation A.2 will
be referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation, and we request that you provide responses for Recommendations A.3, B. 1,
and B.2 (see Appendix 4). Since we did not receive a response from the Legislature of the
Virgin Islands regarding Recommendation A. 1, that recommendation is also unresolved.

The Inspector General Act, Public Law 94-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response to this report by April 30, 1999. The
response should provide the information requested in Appendix 4 and be addressed to our
Caribbean Field Office, Federal Building - Room 207, Charlotte Amalie, Virgin Islands
00802.

We appreciate the assistance of the management and staff of the Division of Personnel in the
conduct of our audit.

                                              Sincerely,


                                      TAv
                                      Eljay B. Bowron
                                      Inspector General
                                                                             V-IN-VIS-004-98


             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240


                                                                 MAR   261999

Honorable Vargrave Richards
President, Legislature of the Virgin Islands
Post Office Box 477
Charlotte Amalie, Virgin Islands 00804

Subject: Audit Report on Followup of Recommendations Relating to Personnel
         Management Practices, Division of Personnel, Government of the Virgin Islands
          (No. 99-I-365)

Dear Mr. President:

This draft report presents the results of our followup review of recommendations contained
in the July 1992 survey report entitled “Personnel Management Practices, Division of
Personnel, Government of the Virgin Islands” (No. 92-I-l 086) (see Prior Audit Coverage).
The objective of this review was to determine whether (1) the Virgin Islands Government
satisfactorily implemented recommendations made in the 1992 report and any new
recommendations were warranted and (2) the Early Retirement Incentive, Training and
Promotion Act of 1994 (the Early Retirement Act) was effective in decreasing the number
of Government employees.

We found that the Government had not implemented four of the six recommendations
included in the prior report and had not complied with the work force reduction and
financing requirements of the Early Retirement Act. Specifically:

        - Although the Division of Personnel took action to develop and implement rules and
regulations for the maintenance and security of official personnel files, the Government did
not (1) take action to amend the Government Reorganization and Consolidation Act of 1987
to remove a conflict that allowed the Governor to hire individuals into unclassified (exempt)
positions that did not meet the requirements of the Personnel Merit System, (2) develop and
implement rules and regulations to restrict the use of unclassified hiring and personal
services contracts to fill positions that should have been a part of the classified service under
the Personnel Merit System, and (3) review and update all entrance examinations used to
determine the qualifications of applicants for positions in the classified service.

        - Although 567 employees in the Government’s Executive Branch elected to retire
under the provisions of the Early Retirement Incentive, Training and Promotion Act of 1994,
the Government did not reduce the size of the Executive Branch work force by a
commensurate number of permanent positions, which would have generated potential
savings in annual payroll costs of at least $16 million, including fringe benefits.
Additionally, the Government and its independent instrumentalities had not paid the
Government Employees’ Retirement System about $8.3 million in additional contributions
needed to fund the early retirements.
To address these issues, we made two recommendations concerning the prior survey report
and two recommendations concerning the Early Retirement Act to the Governor of the
Virgin Islands and one recommendation concerning the prior audit report to the President of
the Legislature of the Virgin Islands.

The Governor’s February 26, 1999, response (Appendix 3) to the draft report addressed in
detail the recommendations contained in our July 1992 report on the Division of Personnel,
which are summarized in Appendix 2. In addressing the prior report’s recommendations, the
Governor’s response in effect adequately addressed Recommendation A.2 in our current
report. However, the response did not address Recommendations A.3, B.l, or B.2. Based
on the response, we consider Recommendation A. 2 resolved but not implemented and
Recommendations A.3, B. 1, and B.2 unresolved. Accordingly, Recommendation A.2 will
be referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation, and the Governor is requested to respond to Recommendations A.3, B. 1,
and B.2 (see Appendix 4).

Although a January 29,1999, response date was requested for Recommendation A. 1, which
was addressed to the Legislature of the Virgin Islands, we have not received a response to
the recommendation. Therefore, the recommendation is unresolved, and the Legislature is
requested to respond to the recommendation (see Appendix 4).

The Inspector General Act, Public Law 94-452, Section 5(a)(3), as amended, requires
semiannual reporting to the U.S. Congress on all audit reports issued, the monetary impact
of audit findings (Appendix l), actions taken to implement audit recommendations, and
identification of each significant recommendation on which corrective action has not been
taken.

In view of the above, please provide a response to this report by April 30, 1999. The
response should provide the information requested in Appendix 4 and be addressed to our
Caribbean Office, Federal Building - Room 207, Charlotte Amalie, Virgin Islands 00802.

We appreciate the assistance of the management and staff of the Division of Personnel in the
conduct of our audit.

                                              Sincerely,



                                              Eljay B. Bowron
                                              Inspector General
                                             CONTENTS
                                                                                                                   Page

INTRODUCTION . . . .._..................._..__._.....................                                                1

      BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     1
      OBJECTIVE AND SCOPE . . . . . . . . . . . . . . , . . . . . . , . . . . . . . . . . . . . . . . . .            2
      PRIOR AUDIT COVERAGE . . . . . . . . . , . . . . . . . . . . , . . . . . . . . . . . . . . . . .               3

FINDINGS         AND         RECOMMENDATIONS                          .................................               5

      A. PRIOR SURVEY REPORT RECOMMENDATIONS . . . . . . . . . . . . . . . 5
      B. EARLY RETIREMENT ACT , . . . . . , . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

APPENDICES

      1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . .                                                  . 16
      2. STATUS OF RECOMMENDATIONS AND CORRECTIVE
         ACTIONS FOR SURVEY REPORT “PERSONNEL
         MANAGEMENT PRACTICES, DIVISION OF PERSONNEL,
         GOVERNMENT OF THE VIRGIN ISLANDS” (NO. 92-I- 1086)                                                        . 17
      3. GOVERNOR OF THE VIRGIN ISLANDS RESPONSE TO THE
         DRAFTREPORT . . . . . ..__............................                                                    . 20
      4. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . .                                                        . 23
                                 INTRODUCTION

BACKGROUND

The Division of Personnel is responsible for administering the Personnel Merit System of
the Government of the Virgin Islands. The Merit System (Title 3, Chapter 25, of the Virgin
Islands Code, as amended) ensures that applicants and career civil servants are provided fair
and equal opportunity for employment and defines two types of Government employees:
classified and unclassified. Classified employees are career civil servants and are covered
by the Merit System. Unclassified employees, as defined by Title 3, Section 451a, of the
Virgin Islands Code, are exempt from the Merit System. They generally work for the head
of the branch of Government or independent instrumentality to which they were appointed.

The Division of Personnel is required to determine the qualifications of applicants to
classified positions through competitive examinations and other selection criteria. Under this
procedure, department and agency heads are required to submit employment requirements
for vacant positions. The Division certifies eligible applicants for the positions and submits
a list of qualified applicants to the appointing authority for selection. The Division also
determines position classifications, salary levels, and other employee entitlements and
maintains employee personnel information. During fiscal year 1998, the Division had a staff
of 52 employees and a budget of $1.9 million, primarily for personal services costs.

On August 26, 1994, the Governor signed into law Act No. 6007, the Early Retirement
Incentive, Training and Promotion Act of 1994 (the Early Retirement Act). The purpose of
the Early Retirement Act, as amended, was “to reduce personnel expenditures by the
Government of the Virgin Islands through a reduction in the size of the government work
force while avoiding layoffs.” To accomplish this purpose, the Early Retirement Act stated
that there would be “for a limited time, a special early retirement incentive program to
members of the Government Employees’ Retirement System of the Government of the
Virgin Islands who are eligible for retirement or who are nearing eligibility for retirement but
who, without this legislation, could not, or would not be in a position to retire under the
current provision of law.” The Early Retirement Act stated that applications for early
retirement should be submitted no later than October 25, 1994 (60 days after enactment of
the Act).

On October 13, 1994, the Governor signed into law Act No. 6028, which, among other
provisions, changed the effective date of the early retirements from December 24, 1994
(120 days after enactment of the Early Retirement Act), to December 3 1, 1994. Further, on
December 30, 1994, the Governor signed into law Act No. 6064, which, among other
provisions, changed the deadline for applying for early retirement from October 25, 1994,
to January 15, 1995, and also changed the effective date of the early retirements from
December 3 1, 1994, to January 3 1, 1995.

In December 1995, the Legislature attempted, through passage of Act No. 6088, to further
amend Act No. 6007 to extend the deadline for applying for early retirement under the Early


                                               1
Retirement Act from January 15 to December 3 1,1995. Although the Governor vetoed the
section of Act No. 6088 that would have granted this extension and the Board of Directors
of the Government Employees’ Retirement System also voted not to implement the revised
application deadline, 86 Government employees who would have been eligible for retirement
under the December 3 1, 1995, deadline filed a class-action suit in the U.S. District Court to
force implementation of the proposed legislative amendment. In July 1997, the District
Court ruled in favor of the employees. However, the Administrator of the Government
Employees’ Retirement System stated that the legal counsel for the Retirement System’s
Board of Trustees filed an appeal in November 1997 to the District Court decision.

Based on information compiled by the Government Employees’ Retirement System and
provided to the Division of Personnel, we found that 657 employees retired under the
provisions of the Early Retirement Act (excluding the 86 employees who were ruled by the
Court to be eligible under Act No. 6088). That number consisted of 567 employees of the
Executive Branch, 9 employees of the Legislative and Judicial Branches, and 8 1 employees
of independent instrumentalities of the Government.

OBJECTIVE AND SCOPE

The objective of this audit was to determine whether (1) the Government satisfactorily
implemented recommendations made in the July 1992 report and any new recommendations
were warranted and (2) the Early Retirement Incentjve, Training and Promotion Act of 1994
was effective in decreasing the number of Government employees.

To accomplish our audit objective with respect to the followup portion of our audit, we
reviewed the Division ofPersonnel’s computerized database of Executive Branch employees
and the Division’s Offkial Personnel Record for a sample of unclassified (exempt)
employees. In addition, we conducted a limited review of the personal services contracts on
file at the Department of Property and Procurement for fiscal years 1996 and 1997. With
respect to the Early Retirement Act, we reviewed personnel listings provided by the Offke
of Management and Budget for fiscal years 1995 through 1998 and payroll registers provided
by the Department of Finance for one pay period each in fiscal years 1995 through 1998. We
limited the scope of our review to the Executive Branch employees who retired under Act
No. 6007 (as amended by Act Nos. 6028 and 6064) because the Division of Personnel
maintained Offkial Personnel Records only for Executive Branch employees and because
the Board of Directors of the Government Employees’ Retirement System was in the process
of appealing the U.S. District Court decision regarding the 86 employees who were ruled to
be eligible to retire under the proposed extended application deadlinecontained in Act
No. 6088.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.
Because of the limited objective and scope of our review, we evaluated internal controls only
to the extent that they related to corrective actions taken on the prior audit recommendations
and the Early Retirement Incentive, Training and Promotion Act of 1994. The internal
control weaknesses we identified in these areas are addressed in the Findings and
Recommendations section of this report. Our recommendations, if implemented, should
improve the internal controls in these areas.

PRIOR AUDIT COVERAGE
During the past 5 years, the Office of Inspector General has not issued any audit reports on
the operations of the Division of Personnel or on the personnel management practices of the
Government of the Virgin Islands. However, reports have been issued within the past 10
years as follows:

          - In March 1989, the Offtce of Inspector General issued the report “Personnel Merit
System Study, Government of the Virgin Islands” (No. 89-63), which stated that the
Government did not apply sound business practices in contracting for a study of the
Personnel Merit System or provide proper management and accounting controls over the
conduct of the study. As a result, according to the report, the Government (1) had no
assurance that it would receive an acceptable work product, (2) initiated work without
completing intergovernmental personnel agreements with the District of Columbia
Government, (3) spent at least $33,621 on activities that could have been performed by
Virgin Islands staff, and (4) incurred $228,662 for activities that were of questionable
eligibility for reimbursement. The report contained eight recommendations to improve
procedures and internal controls related to the acquisition of consulting services and the
payment of invoices related to such services, seek reimbursement of questioned costs, and
take actions to complete the Personnel Merit System study. Five of the eight
recommendations were not implemented and are no longer relevant because of the time that
has elapsed since the report was issued. However, the Personnel Merit System study that
was the subject of the report was never completed.

        - In February 1990, the Virgin Islands Bureau of Audit and Control issued the report
“Audit of Internal Control Procedures for Payroll, Department of Finance”
(No. AC-01 -3O-90), which stated, with regard to the Division of Personnel, that effective and
efficient administration of the personnel management system was “hindered” by heavy
reliance on manual procedures, a “flawed file maintenance system,” and the “limited
integration of the Personnel Merit System with the payroll system.” The report
recommended that the Governor require the Director of Personnel to develop a system that
would allow for the accurate and immediate retrieval of employee files and the integration
of the personnel management system to allow appointments, terminations, pay status
changes, and other personnel actions to be automatically processed through the payroll
system on their effective dates. Although we did not specifically follow up on these
recommendations, we believe, based on the results of our current review, that the
recommendations were not fully implemented.



                                              3
         - In July 1992, the Office of inspector General issued the report “Personnel
Management Practices, Division of Personnel, Government of the Virgin Islands”
(No. 92-I-1086) which stated that a conflict existed between the law establishing the
Personnel Merit System and the 1987 law that allowed the Governor to reorganize the
Government’s Executive Branch. According to the report, the Governor, because of this
conflict, was able to appoint individuals to unclassified positions that would normally be
filled by career civil servants. These unclassified positions included a secretary, a cashier,
a sales representative, a data entry clerk, a housekeeper, a maintenance worker, a security
guard, a clerk typist, and a food service worker. The report further stated that (1) the number
of unclassified employees increased, from 1987 to 1990, by 925 (3 15 percent of the 1987
level), at a total additional salary cost of $19.5 million; (2) the Government used personal
services contracts to fill additional positions, such as carpenter, mason, draftsman, and
psychologist, that would normally be part ofthe career civil service; (3) the Government had
not made any progress in correcting significant problems that existed in its Personnel Merit
System; and (4) the Division of Personnel had not updated certain entrance examinations or
adequately maintained and secured personnel files.                The report contained six
recommendations, which were the primary focus of this followup audit. As detailed in the
Findings and Recommendations section of this report (see Finding A and Appendix 2), we
considered, based on our followup audit, one recommendation implemented, one
recommendation closed because it was no longer feasible, and four recommendations not
implemented. Subsequently, based on the Governor’s February 26, 1999, response
(Appendix 3) to the draft of this report, we considered three of the four outstanding
recommendations resolved but not implemented.
                FINDINGS AND RECOMMENDATIONS

A. PRIOR SURVEY REPORT RECOMMENDATIONS

Of the six recommendations made in our July 1992 survey report “Personnel Management
Practices, Division of Personnel, Government of the Virgin Islands” (No. 92-I-1086), we
found that one recommendation was implemented, one recommendation was considered
closed because it was no longer feasible, and four recommendations were not implemented.
(The status of the recommendations and the corrective actions taken for each
recommendation are in Appendix 2.) Specifically, the Division of Personnel took action to
develop and implement rules and regulations for the maintenance and security of official
personnel files, including limiting access to authorized individuals. However, the
Government did not (1) take action to amend the Government Reorganization and
Consolidation Act of 1987 to remove a conflict which allowed the Governor to hire
individuals into unclassified positions that did not meet the requirements of the Personnel
Merit System (Title 3, Section 45 la, of the Virgin Islands Code); (2) develop and implement
rules and regulations to restrict the use of unclassified hiring and personal services contracts
to fill positions that should have been a part of the classified service under the Personnel
Merit System; and (3) review and update all entrance examinations used to determine the
qualifications of applicants for positions in the classified service. In addition, the collection
of the $3,942 overpayment was not considered feasible because of the lack of documentation
to bill the personal services contractor. The then-Governor disagreed with the findings and
recommendations in the prior report and did not take actions to implement the
recommendations. As a result, positions that should have been part of the classified service
were filled through unclassified appointments and personal services contracts--actions that
were not in compliance with the intent of the Personnel Merit System. At least 76
unclassified positions, with annual salary costs totaling more than $2 million, should have
been filled as classified positions under the Personnel Merit System. In addition, the
Division of Personnel was unable to provide an accurate, current, and complete list of all
Government employees.

Personnel Management Practices

Title 3, Section 45 1 a, of the Virgin Islands Code defines the categories of employees in the
Government Service as follows:

           (a) The Government Service includes the career service and the positions
           exempted from the career service.

           (b) The exempt positions are those of -
               (1) department heads, assistant Commissioners and Deputy
           Commissioners and members of boards, commissions or other bodies
           appointed by the Governor;
               (2) members and staff of the Legislature, officers elected by popular
            vote, and persons appointed to fill vacancies in elective offices;

                                           5
                (3) Judges of the Municipal [now-Territorial] Courts and
             employees of the Judicial Branch;
                (4) patients and inmates employed in government institutions;
                (5) casual labor hired on a hourly basis for not more than 40 hours in
             any one quarter and as specifically authorized by law; part-time labor for
             less than 20 hours per week for not more than six-months; trainees for
             not more than one six-month period; and persons employed for less than
             six months in professional, scientific or other similar capacity on
             temporary projects, inquiries, investigations, or examinations;
                (6) employees located outside the Virgin Islands;
                (7) employees of the -
                    (i) University of the Virgin Islands;
                    (ii) Virgin Islands Water and Power Authority; and
                    (iii) Virgin Islands Port Authority; and
                (8) an officer or employee in a position of a policy-determining
             nature; employee who is a special assistant, or who is on special
             assignment to, or whose position requires a confidential relationship to a
             policy-making offtcial when the position is so designated by the
             Governor and approved by the Legislature.

            (c) All positions in the Executive Branch of the Virgin Islands
            Government not exempted under subsection (b) of this section shall be
            in the career service.

     Additionally, a U.S. Court of Appeals decision explained that Section 45 1 a “reflects a clear
     legislative policy that all employees in the executive branch must, unless they fit within the
     exceptions in this section, be considered members of the career service if they work twenty
     or more hours per week.” (Richardson v. Felix, 856 F. 2d 505, 51 I (3d Cir 1988))

     However, as stated in our 1992 report, when the Legislature of the Virgin Islands passed Act
     No. 5225 in December 1986 and Act No. 5265 (the Government Reorganization and
     Consolidation Act of 1987) in June 1987, the Acts allowed the Governor to classify and
     reclassify any positions within the Government as part of a reorganization plan in order to
     accomplish the intended reorganization of the Executive Branch. Because the Acts did not
     establish a specific expiration date for the Governor’s unrestricted classification and
     reclassification authority, the Governor, since that time, has not complied with the
     restrictions on unclassified positions stated in Title 3, Section 45 1 a, of the Virgin Islands
     Code.

     Specifically, based on computerized records maintained by the Division of Personnel, we
     identified about 1,700 active Government employees who were in unclassified (exempt)
     positions as of April 1998. We reviewed a sample of 15 1 of these unclassified positions and
     found that 76 positions (50 percent), with annual salaries totaling more than $2 million,
     should have been filled as classified positions under the Personnel Merit System. For
     example, employees were hired to unclassified positions as an office aide, a receptionist, a
     secretary, a clerk, a general clerk, a driver, a domestic aide, and a lifeguard. This practice
1I

                                                   6
was not in compliance with Title 3, Section 452(a)(l), of the Virgin Islands Code. which
states that the Director “shall . . . establish and maintain a system of personnel administration
based on merit principles and scientific methods governing the appointment, promotion,
transfer, layoff, removal and discipline of the officers and employees of the Government.”
In our opinion, based on the specific requirements of Title 3, Section 451a, of the Virgin
Islands Code, these positions should have been filled as classified positions under the
Personnel Merit System.

In addition, we found that the Government continued the practice of using personal services
contracts to fill positions similar to those that existed under the Personnel Merit System. We
limited the scope of our review of personal services contracts because the Virgin Islands
Bureau of Audit and Control was conducting a detailed audit of such contracts on a
Governmentwide basis. However, based on our limited review of personal services contracts
on file at the Department of Property and Procurement for fiscal years 1996 and 1997, we
found that personal services contracts were executed to hire individuals to such positions as
an office manager, a field inspector, and a clerk, all of which would be under the career
service classifications of the Personnel Merit System. Additionally, the Director of
Personnel said that he was not aware of an overpayment of $3,942 made to a personal
services contractor that was disclosed in the prior survey report. During our September 11,
1998, meeting on the preliminary draft of this report, Division of Personnel offtcials
informed us that pertinent contract data were not available to the Division for it to effectively
take action to collect the overpayment from the contractor. Therefore, we considered
Recommendation 4 from our July 1992 report to be closed because there are no pertinent
documents available to initiate the billing process.

The Legislature’s legal counsel said that no efforts had been made by the Legislature to
amend the Reorganization Act of 1987 or Title 3, Chapter 25, of the Virgin Islands Code to
limit the Governor’s authority to fill positions that should be filled through the Personnel
Merit System. As a result, the Personnel Merit System is unable to ensure that applicants
and career civil servants are provided fair and equal opportunities for employment and
advancement.

Entrance Examinations

The Division of Personnel administered entrance examinations for such positions within the
Government as a firefighter, an account clerk, an internal revenue officer, a voucher
examiner, a cashier, and a medical records clerk. In July 1996, the Division’s Supervisory
Personnel Analyst on St. Thomas and a Human Resources Specialist on St. Croix received
introductory training necessary to update entrance examinations to reflect the current
technology, standards, and other factors related to each position to be tested. Despite this
training, the only examination to be updated since the 1980s was the promotional
examination for Fire Service employees, and that examination was updated by a consultant
at a cost of about $2,000. The Assistant Director of Personnel told us that the Division did
not update other entrance examinations because of a lack of funding.
We reviewed the pass/fail rate for all examinations administered by the Division during fiscal
years 1995 through 1998 and found that of the 685 examinations administered to individual
applicants during that period, 365 examinations (53 percent) had failing scores. In our June
1992 report, we stated that because significant changes in accounting standards had “been
incorporated into accounting textbooks . . . obsolete and unfamiliar material in the
[accounting] examination may have contributed to the high failure rate for recent accounting
graduates.” Similarly, the high failure rate identified by our current review may be
attributable to the additional changes that have been made in accounting standards and in
other technical fields, such as data processing, since 1992, when the prior report was issued.

Personnel Records

Based on our review, we concluded that, although the Division of Personnel had improved
the security and control of official personnel records, it was unable to provide an accurate,
current, and complete list of Government employees. Title 3, Section 452(a)(4), of the
Virgin Islands Code states that the Director of Personnel, under the general supervision of
the Governor, “shall . . . establish and maintain a roster of all employees in the Government
Service, in which there shall be set forth, as to each employee, the class title of the position
held; the compensation; any change in class title, pay or status; and any other necessary data.”

As part of our review of unclassified employees, we requested a list of all current
Government employees from the Division. The Division was not able to provide this
information and instead provided us with a computerized list of all Government employees
who had a Notification of Personnel Action’ processed through the Division’s computer
system. This list, which was provided electronically as of April 6, 1998, contained 17,295
entries. However, we found that the computerized list (1) included employees who were
deceased, were terminated, had resigned, or had retired; (2) included employees of non-
Executive Branch agencies; and (3) did not contain all current Government employees who
had a Notification of Personnel Action. In addition, we found that in April 1998, the
Director of Personnel sent a memorandum to all department and agency heads which stated
that the “Division of Personnel is attempting to reconcile its master personnel listing with
each Government agency and/or department which comprises the Executive Branch.”
(Emphasis in original.) The memorandum further stated that “it is critical that the Division
of Personnel maintain an accurate count of the Government’s work force.” Accordingly, we
concluded that the Division of Personnel recognized the limitations with respect to its
computerized list of Government employees and was taking action to correct the deficiency.




‘A Notification of Personnel Action (commonly referred to as a NOPA) is a Government document used to
authorize the hiring of an individual to a Government position; approve salary increases, promotions, and
transfers; and document resignations, terminations, and leaves of absences. The notification contains pertinent
personal information including name, address, date of birth, Social Security number, position classification,
salary, and original date of entry into Government service.

                                                       8
Recommendations

We recommend that the Legislature of the Virgin Islands:

        1. Reconsider Recommendation 1 from our July 1992 report (see Appendix 2) and
develop a plan that identifies the specific corrective actions to be taken to amend the
Government Reorganization Act, including the title of the responsible official and the target
date to fully implement the recommendation.

We recommend that the Governor of the Virgin Islands:

        2. Reconsider Recommendations 2, 3, and 5 from our July 1992 report (see
Appendix 2) and develop a plan that identifies the specific corrective actions to be taken to
develop and implement rules and regulations for hiring employees to unclassified positions
and for using personal services contracts and to update all employee entrance examinations.
The titles of the responsible officials and the target dates to fully implement the
recommendations should be provided as part of the plan.

        3. Require the Division of Personnel to establish computerized databases for current
and former Government employees which allow Government managers to obtain timely and
accurate information on all current Government employees and on different categories of
former employees, such as retirees.

Legislature of the Virgin Islands Response and Offke of Inspector General
Reply
We did not receive a response from the Legislature of the Virgin Islands to
Recommendation 1. Therefore, the recommendation is unresolved (see Appendix 4).

Governor of the Virgin Islands Response and Office of Inspector General
Reply
The February 26, 1999, response (Appendix 3) to the draft report from the Governor of the
Virgin Islands addressed in detail the recommendations contained in our July 1992 report on
the Division of Personnel, which are summarized in Appendix 2. In addressing the prior
report’s recommendations, the response in effect adequately addressed Recommendation 2
in our current report. However, the response did not address Recommendation 3. Based on
the response, we consider Recommendation 2 resolved but not implemented and
Recommendation 3 unresolved (see Appendix 4).
B. EARLY RETIREMENT ACT

Although 567 employees in the Government’s Executive Branch elected to retire under the
provisions of the Early Retirement Incentive, Training and Promotion Act of 1994, the
Government did not reduce the aggregate number of filled positions by one permanent
position for each employee who elected early retirement, as required by the Act. Therefore,
neither the size of the Government work force nor the amount of personal services
expenditures was reduced to meet the purpose and intent of the Act. In addition, we found
that although the Government Employees’ Retirement System billed both the Government
and its independent instrumentalities on a quarterly basis for retirement contributions due the
Retirement System as a result of the Early Retirement Act, the Government did not remit its
portion of contributions to the Retirement System. This occurred because of the
Government’s limited cash resources to pay all of its obligations in a timely manner. As a
result, although the number of Executive Branch employees should have been decreased by
567 employees after implementation of the Early Retirement Act, with a potential savings
of at least $16 million in annual payroll costs, such a reduction in the Government work force
did not take place. Additionally, the Government Employees’ Retirement System had not
received contributions of about $8.3 million from the Government and its independent
instrumentalities that were necessary to fund the additional costs of the Early Retirement Act.

Retirement Act Requirements

The purpose of the Early Retirement Act (Act No. 6007, as amended by Act Nos. 6028 and
Act No. 6064) was intended to reduce the deficit of the Government of the Virgin Islands
through an early retirement incentive program for Government employees. Those employees
who elected to retire under the provisions of the Act were required to file applications no
later than January 15, 1995, with the retirements becoming effective on January 3 1, 1995.
In addition, the Act allowed the Government to designate up to 33 percent of electing
employees who were classified as essential to continue to provide service to the Government
under an employment contract for up to 180 days. Our review of personnel files at both the
Division of Personnel and the Government Employees’ Retirement System for 42 of the early
retirees showed that the files contained sufficient documentation to veti@ that the employees
elected early retirement in accordance with the Act. Similarly, based on our review of
employment contracts for the 149 “designated members,“2 we found that the total number
of contracts did not exceed the maximum number (189) allowed by the Act. In addition, we
did not find any documentation or other information which indicated that any “designated
member” worked in excess of the 180-day maximum allowed by the Act or that any
“designated member” reentered Government service without first canceling his or her
annuity, as required by the Act. However, we found that the Government did not comply
with the provisions of the Early Retirement Act with respect to (1) reducing the size of the


‘As referred to in the Act, the term “designated member” means an employee designated by the appropriate
executive authority to continue to provide service to the Government under an employment contract
notwithstanding the employee’s early retirement. An “appropriate executive authority” would be the Governor,
the President of the Legislature, the Presiding Judge of the Territorial Court, or the board of directors of the
Government’s independent instrumentalities.

                                                       10
Government’s Executive Branch work force and (2) financing the Act. During our
September 11, 1998, meeting on the preliminary draft of this report, the Director of
Personnel noted that the Early Retirement Act did not designate which Government agency
was responsible for monitoring the requirements of the Early Retirement Act.

Reduction in the Government’s Work Force
Section 7 of Act No. 6007 (the Early Retirement Act), as amended by Act No. 6064, states:

       (a) Commencing upon the effective date of this Act, the Governor shall
       reduce the aggregate number of filled positions in the Government of the
       Virgin Islands by one permanent position for each employee of the
       Government electing early retirement under this Act.

       (b) No later than 30 days following enactment of this Act, the Governor shall
       provide to the Legislature the total number of filled positions in the
       Government of the Virgin Islands as of the date of enactment of this Act.
       The maximum number of persons employed by the Government of the Virgin
       Islands, at any time during the five years immediately following enactment
       of this Act, may not exceed the total number of filled positions in the
       Government, as [of] the date of enactment of this Act, reduced by the number
       of employees electing to retire under the provisions of this Act.

Despite the requirement of Subsection 7(b), the Legislature’s Post Audit Division could not
confirm whether the required information on the number of filled positions as of the date of
enactment of the Act was ever provided to the Legislature. Because we were not able to
obtain the number of employees within the Executive Branch as of the date of enactment of
the Act, we expanded the scope of our review to include an analysis of the personnel listings
maintained by the Office of Management and Budget and the payroll registers maintained
by the Department of Finance for early fiscal year 1995 (prior to the January 3 1, 1995,
effective date of the Early Retirement Act) and fiscal years 1996 through 1998 (after the
effective date of the Act) to determine whether there was a reduction in the Government’s
work force.

In January of each year, the Office of Management and Budget sent personnel listings to
Executive Branch agencies of the Government for verification of budgeted positions as part
ofthe annual budget process. The personnel listings, which were subsequently submitted to
the Legislature, detailed, by agency, the following information employee name, position
title, budget control number, and annual salary. Our analysis of the personnel listing for
fiscal year 1995 showed that, as of November 1994 (the available listing closest to the
effective date of the Early Retirement Act), there were 10,389 budgeted (not necessarily
filled) positions within the Executive Branch. Therefore, in accordance with the Early
Retirement Act, the number of budgeted positions for the Executive Branch at any time
during tbe 5 years immediately following its enactment of the Act should not have exceeded
9,822 (10,389 budgeted positions less 567 early retirees). However, our analysis of the
personnel listing for the 3 subsequent years showed that there were 10,483 budgeted

                                             11
positions in fiscal year 1996, 9,901 budgeted positions in fiscai year 1997, and 10,804
budgeted positions in fiscal year 1998. Therefore, we concluded that the Government’s
budget process did not take into consideration the reduction in the Government’s work force
that was required by the Early Retirement Act for the 3 fiscal years following enactment of
the Act.

In January 1998, the Office of Management and Budget prepared a document for the
Division of Personnel that summarized the total number of filled positions and total salary
costs for the Executive Branch for fiscal years 1992 through 1997. According to the Deputy
Director of Management and Budget, the information was compiled from Management and
Budget’s analysis of the personnel listings (discussed previously) that were submitted to the
Legislature as part of the budget process. Our review of Management and Budget’s analysis
showed that, in fiscal year 1995 (before the effective date of the Early Retirement Act), there
were IO,3 15 filled positions within the Executive Branch. Therefore, in accordance with the
Early Retirement Act, the number of filled positions for the Executive Branch at any time
during the 5 years immediately following enactment of the Act should not have exceeded
9,748 (lo,3 15 filled positions less 567 early retirees). However, based on our review of
Management and Budget’s analysis for the 2 subsequent years (fiscal year 1998 data were
not available), we determined that there were 9,996 filled positions in fiscal year 1996 and
10,095 filled positions in fiscal year 1997. As such, we concluded that the Government’s
actual work force was not reduced to the number required by the Early Retirement Act for
the 2 fiscal years following enactment of the Act.

We also analyzed the payroll registers at the Department of Finance for one pay period in
each of fiscal years 1995 through 1998. The payroll registers were generated on a biweekly
basis to reflect the gross pay and net pay for each employee of the Government. Our analysis
showed that, as of November 1994 (before the effective date of the Early Retirement Act),
there were 9,901 paid employees within the Executive Branch. Therefore, in accordance
with the Early Retirement Act, the number of paid employees at the Executive Branch at any
time during the 5 years immediately following its enactment of the Act should not have
exceeded 9,334 (9,90 1 paid employees less 567 early retirees). However, our analysis of the
payroll registers for February of the 3 subsequent fiscal years showed that there were 9,901
paid employees in fiscal year 1996,9,93 1 paid employees in fiscal year 1997, and 9,894 paid
employees in fiscal year 1998. Therefore, we concluded that the Government’s actual
payrolls were not reduced to the number required by the Early Retirement Act for the 3 fiscal
years following enactment of the Act.

We conducted these three similar analyses because a definitive, certified, accurate list of
Government employees was not available and the three primary sets of records that were
available had significant differences. However, as shown in Table I, each of the records
shows that the Early Retirement Act did not achieve its primary objective of reducing the
size of the Government’s work force, at least with regard to the Executive Branch.




                                              12
                       Table 1: Executive Branch Employees by Fiscal Year

                     Fiscal            Budgeted                 Filled             Paid
                     Year              Positions              Positions          Employees                 Average

                     1995                 10,389                10,315                9,90 1                 10,202
                     1996                 10,483                 9,996                9,90 1                 10,127
                     1997                  9,901                10,095                9,93 1                  9,976
                     1998                 10,804                  N/A                 9,894                  10,349

           Base Target *                   9,822                 9,748                9,334                   9,635
           l “Base Target” consists of the numbu ofemployees in fiscal year 1995 less the 567 employees who retired under

        the Early Retirement Act.

          sources:
          -The “Budgeted Positions” are based on personnel listings prepared by the Virgin Islands Office of Management
          and Budget as part of the annual Executive Budget preparation process.
          -The ‘Filled Positions” are based on an analysis prepared by the Virgin Islands Office ofManagement and Budget
          in January 1998.
          - The “Paid Employees’ arc based on payroll registers prepared by the Virgii Islands Department of Finance fu
          pay periods in November 1994 and in February 1995,1996. and 1997.


Assuming an average annual salary of $25,000, we determined that, had the Government’s
work force been reduced in accordance with the requirements of the Early Retirement Act,
the Government could have saved an estimated $16 million in annual salary costs (including
associated fringe benefit costs).

Financing of the Early Retirement Act

The Early Retirement Act requires that the Government make regular contributions to the
Government Employees’ Retirement System for each employee electing to retire under the
provisions of the Act. For each employee who retired under the provisions of Section 4,
Subsections (a) and (b),3 the Act requires that

         . . . a sum equal to the employer and employee contribution that would have
         been made had the employee not elected to retire under the provisions of this
         Act, . . . be paid in three installments during Fiscal Year 1995 and quarterly
         during each successive fiscal year by each organization of Government, and


‘Section 4(a) of the Early Retirement Act states, “Notwithstanding the provisions of subsection (d) of Section
705 [of the Virgin Islands Code], any member of the Government Employees Retirement System who has or
will have a combined aggregate number of years of credited service completed, plus number of years of age
attained, equal to at least seventy-five (75) years total as of December 3 1,1994 may retire under the provisions
of this Act notwithstanding his age without reduction of annuity.”

Section 4(b) of the Early Retirement Act states, “For the purposes of meeting the conditions for service
retirement pursuant to Section 705 [of the Virgin Islands Code], any member of the Government Employee’s
Retirement System’who is age fifty (50) years with ten (10) but less than thirty (30) years of credited service
as of December 3 I, 1994 may add an additional three years to their age for the purposes of that Section.”

                                                              13
         continuing for the period that would otherwise have been required for the
         employee to reach the age of sixty-two (62).

In addition, for each employee who retired under the provisions of Section4, Subsection (c),~
the Act requires that

         . . . a sum [be paid] equal to the additional contribution the employer and
         employee would have made had the employee received a salary four percent
         higher during the three years used to compute the employee’s “average
         compensation” figure, plus a sum of $5,000 representing the present value of
         the additional annuity such employee will receive over the next ten years,
         such payment to be made in a lump sum in the fiscal year in which
         withdrawal from service by electing members becomes effective.

In order to implement these provisions, the Legislature, in fiscal year 1995, appropriated
$6.3 million from the Government’s General Fund to the Government Employees’
Retirement System.

The Consulting Actuary of the Government Employees’ Retirement System estimated that
additional contributions (for fiscal years 1994 through 2014) due the Retirement System for
employees who elected early retirement would total about $20 million. Based on information
provided to us by the Government Employees’ Retirement System, the Retirement System,
as of March 3 1, 1998, billed the Executive, Legislative, and Judicial Branches of the
Government a total of $14.4 million for quarterly contributions. However, except for the
initial appropriation of $6.3 million, the Government had not made any quarterly
contributions to the Retirement System. Therefore, as of March 3 1, 1998, the Government
owed the Retirement System about $8.1 million for outstanding quarterly contributions for
employees who elected early retirement. Additionally, the Retirement System, as of
March 3 1,1998, billed the Government’s independent instrumentalities a total of $994,700,
of which $788,200 had been paid. Therefore, the independent instrumentalities, as of March
3 1, 1998, owed $206,500. The Retirement System’s Administrator stated that, because the
Government has not made a quarterly payment to the Retirement System for the early
retirees, contributions received by the Retirement System for regular employees were being
used to pay the retirement annuities of the early retirees.




%&ion 4 (c) of the Early Retirement Act states, “For the purpose of computing the service retirement annuity,
under Section 706 (a) [of the Virgin Islands Code], for an employee electing to retire under the provisions of
this Act who is eligible to retire without penalty under the provisions of Section 705 [of the Virgin Islands
Code], or who has already completed 30 years of service, as of December 3 1,1994, and without regard to the
benefit provided under subsections (a) or (b) of this section, the average compensation figure used shall be
increased by four (4) percentage points, subject to the limitations of Section 706(a) and (d) [of the Virgin
Islands Code].”

                                                     14
Recommendations

We recommend that the Governor of the Virgin Islands:

         1. Develop and implement a plan of action, which incorporates a hiring freeze and
an attrition program, that will reduce the size of the Government work force in accordance
with the requirements of the Early Retirement Incentive, Training and Promotion Act of 1994
(Act No. 6007, as amended).

        2. Require the Department of Finance to establish a payment plan to remit the
outstanding balance of $8.1 million to the Government Employees’ Retirement System for
employees who elected early retirement and to make a commitment to remit retirement
contributions to the Government Employees’ Retirement System in a timely manner. The
independent instrumentalities should also be required to pay the retirement contributions of
$206,500 that they owed the Retirement System.

Governor of the Virgin Islands Response and Office of Inspector General
Reply
The February 26, 1999, response (Appendix 3) to the draft report from the Governor of the
Virgin Islands addressed in detail the recommendations from our July 1992 survey report on
the Division of Personnel, which are summarized in Appendix 2. However, the response did
not address the new recommendations made as a result of our current audit. Therefore,
Recommendations 1 and 2 are unresolved (see Appendix 4).




                                            15
                                                    APPENDIX 1


               CLASSIFICATION OF MONETARY AMOUNTS

                                                  Funds To Be Put
                      Finding Area                 To Better Use*

A. Prior Audit Followup
       Personnel Management Practices                $2,000,000

B. Early Retirement Act
       Reduction in the Government’s Work Force       16,000,OOO
       Financing of the Early Retirement Act           8.300.000

       Total                                        $26,300.000




*The amounts represent local fknds.




                                        16
                                                                                  APPENDIX 2
                                                                                    Page 1 of 3


                   STATUS OF RECOMMENDATIONS
                     AND CORRECTIVE ACTIONS
                        FOR SURVEY REPORT
               “PERSONNEL MANAGEMENT PRACTICES,
                      DIVISION OF PERSONNEL,
               GOVERNMENT OF THE VIRGIN ISLANDS”
                            (No. 92-I-1 086)

                                                          Status of Recommendations
             Recommendations                                 and Corrective Actions

To the Legislature of the Virgin Islands:

1. Amend the Reorganization Act of 1987 Not implemented. According to the
to limit the Governor’s hiring authority to Legislature’s legal counsel, the Legislature
positions that meet the requirements of the did not amend the Reorganization Act to
Personnel Merit System (Title 3, Section    limit the Governor’s hiring authority.
45 1 a, of the Virgin Islands Code) for
unclassified positions.

To the Governor of the Virgin Islands:

2. Develop and implement rules and               Not implemented. We reviewed the
regulations for the hiring of employees to       Division of Personnel’s “Personnel and
unclassified positions. Such rules and           Procedures Manual” and found that there
regulations should restrict the use of           were no provisions regarding the hiring of
unclassified positions to those categories       employees to unclassified positions. Based
specifically provided for in Title 3, Section    on our analysis of a sample of 15 1 of the
45 1 a, of the Virgin Islands Code.              approximately 1,700 unclassified employees
                                                 of the Executive Branch of the Government,
                                                 we found that 76 (50 percent) positions, with
                                                 more than $2 million in annual salaries,
                                                 should have been filled by individuals hired
                                                 under the Personnel Merit System, in
                                                 accordance with Title 3, Section 45 1 a, of the
                                                 Virgin Islands Code.




                                                17
                                                                              APPENDIX 2
                                                                                Page 2 of 3

                                                       Status of Recommendations
             Recommendations                             and Corrective Actions

3. Develop and implement rules and            Not implemented. Based on our review of
regulations for the use of personal services  the Division of Personnel’s “Personnel and
contracts. Such rules and regulations         Procedures Manual,” we found no
should:                                       provisions regarding the use of personal
                                              services contracts. Further, Personnel
    - Restrict the use of personal services officials said that they were only in the
contracts to fill positions either which are  “loop” with respect to personal services
similar to positions that already exist under contracts and that the Director of Personnel
the Personnel Merit System or which           conducted only a “cursory” review of the
should be added to position classifications   contract, either signed or initialed the
under the Personnel Merit System.             contract, and then passed the contract along
                                              with actions they said were in accordance
    - Establish controls to ensure that the   with the Department of Property and
Director of Personnel reviews and             Procurement’s routing schedule. The
authorizes such contract actions.             Division of Personnel did not maintain
                                              copies of the contracts. Moreover,
                                              Personnel officials told us that there was no
                                              assurance that all personal services contracts
                                              were routed through the Division of
                                              Personnel for review. Based on our limited
                                              review of personal services contracts, we
                                              found that the practice of using these
                                              contracts to fill positions already existing
                                              under the Personnel Merit System
                                              continued, in that there were contracts for
                                              positions such as office manager, clerk, and
                                              field inspector.

4. Obtain reimbursement of $3,942 for the Closed. Contract data to effectively follow
overpayment on a personal services        up on this recommendation were not
contract for a permits administrator.     available. Therefore, we consider
                                          implementation of the recommendation no
                                          longer feasible.

5. Require the Director of Personnel to        Not implemented. Although two employees
review all entrance examinations currently     of the Division of Personnel received
being used by the Division of Personnel        introductory training needed to update
and update those examinations to reflect       entrance examinations to reflect the current
the current technology, standards, and         technology, standards, and other factors
other factors related to each position to be   related to each position to be tested, the
tested.                                        Division had updated only one examination
                                               since the early 1980s.


                                               18
                                                                           APPENDK 2
                                                                             Page 3 of 3

                                                     Status of Recommendations
            Recommendations                            and Corrective Actions

6. Develop and implement rules and           Implemented. The Director of Personnel
regulations for the maintenance and          issued a memorandum in November 1992 to
security of official personnel files,        the staff of the Division of Personnel
including limiting access to official        entitled “Official Personnel Records Access
personnel files to authorized individuals.   Procedure.” The memorandum contained
Chapter 293 of the Federal Personnel         procedures for the maintenance of and
Manual should be used as a guide for such    access to the Official Personnel Records
rules and regulations.                       maintained by the Division of Personnel.
                                             The procedures ensured that (1) all
                                             employee personnel files were consistently
                                             maintained in accordance with current
                                             personnel practices and applicable Virgin
                                             Islands and Federal laws, (2) employee
                                             personnel files were properly safeguarded
                                             and protected, and (3) there was a logical
                                             and systematic method to restrict access to
                                             data maintained in the employee personnel
                                             files.




                                             19
                                                                              APPENDIX 3
                                                                              Page 1 of 3




                            T HE UNITED STATES V IRGIN ISLANDS
                                       OFFICE OF THE GOVERNOR
                                         GOVE~ nousE
                                    Ckarktte Amali& V.I. am2
                                           8.9-77-1




February 26,1999


Mr. Eljay B. Bowron
Inspector General
Oflice of Inspector General
United States Department of Interior
Washington, D.C. 20240

Subject:       Draft Audit Report on Follow up of Recommendations Relating to Personnel
               Practices, Division of Personnel, Government of the Virgin Islands (Assignment
               No. V-IN-VIS-00498)

Attention:     Mr. Arnold E. van Beverhoudt, Jr.
               Director of Insular Audits

Dear Mr. Bowron:

Kindly consider this letter our response to the draft audit report referenced above. As you are
aware, this administration came into office on January 4,1999, as a result, we are currently
assessing the current personnel management practices. We note for the record that several of the
areas referred to in the report are encompassed in our review.

In general terms, we concur with the advice offered. Our specific responses to the
recommendations are as follows:

       Recommendation to the Legislature of the Virgin Islands

        (2)    Develop and implement rules and regulations for the hiring of employees to
               unclassified positions . . .

        Concur - It appears that a procedure to curt& the Jhiug of employees in the unclasstied
service was instituted follow&g tie 1992 audit The procedure reqtied that aUrequests to
es&Ah an exempt position requked a review by the Division of Personnel to ascertah ifthe
reqtiemena of 7Z.e 3, Section 4.51 were sahfied. It couldnot be detemked when thti
prmedure ceased. We wiH &sue rules and reguJatitins that set forth the procedure for compJe




                                               20
                                                                               APPENDIX 3
                                                                               Page 2 of 3


Mr. Eljay B. Bowron
February 26, 1999
Page 2


with the statutory requirements for the he of unclassified employees. 7Ze targer date for
implement&on is October I, 1999. 73e offici&s responsible for implementaobn are:
Acring Director of Personnel -Joanne U. Bany and AC&g Attorney General - Iver Soidiron.

       (3)     Develop and implement rules and regulations for the use of personal services
               contracts . . .

         Concur - We wiu LFsue rules andregulaobns chat set forth the procedure for tie use of
penonal services cormacrs. It is intended that joint or compahble rules and regultibns will be
developed between the Department of Propw and Procurement and the Division of Personnel.
 73ese rules &provide for the pritir approval by the Director of Penonne/, for al personal
service contrac&. We recog&e that an ewo$tedprocess must be included to provide for the
rimely hEzg of temporary employees in tie event of emergenci>s. Additiona& exrStig statutov
autbon@ and rules and regu&ions Hiu be reviewed to detennhe what adjustmen& must be made
to insure tiat quahXedindi~‘duaLs may be hired fit0 positions as needed. 7he target da&e ti
October I, 1999. Notw&s~ding the target date estahihhed, both agency heads F&I be directed
to amend the CruTentprocess to include the Director of Personnel’s renew and approval of
personal service contracls by May 1,199P. TT;he responsible parties are Marc B.&s, Achng
C&mtisioner of Propem and Procurement,- Iver Sm.&-on, A&g Artomey Gene&; and Joanne
U. Barry, Ace Direcror of Personnel.


       (4)    Closed



       6)     Require the Director of Personnel to review all entrance exams currently being
              used and update exams. . . to reflect the current technology, standards, and other
              factors related to each position to be tested.

        cbncur - 7Te cun-ent enttance examin atibns with few excephbns are outdared. Although
tuv employees received an mtroductoq course in updaa’ng examLmons, that was lnsuf.Ticient to
prepare for the task of rewn* and valid* exams. 73e undertaking is cosdy and wiu require a
s&&cant amount of time for accurate review. We understand rhrlr an Elxamtiation Task Force
was established in 1992, however the reviewprocess uzu never completed. It is recognized that
&is unden!&ingls necessary and we wiu be reques& as.&tance from the USDA Graduate
ScbooJ h acqenew examinations, w ofpersonnel staRti devdoping the examinatibns,
and for technical ass&tance to update the cun-ent exambahons.

73e wt date is January I, 2000 and the offiu*~responsibie for rinpemen&titin & the Acting
Director of Pmonnel Joanne U. Ban-y.




                                              21
                                                                                APPENDIX 3
                                                                                Page 3 of 3


Mr. Eljay B. Bowron
February 26, 1999
Page 3


        (6)    Implemented

This administration recognizes the critical issues conveyed in this report and the requirement for
government efficiency. We will take the necessary corrective measures.



Sincerely,



(q#J&&.l~
  arles W. Tumbull
Governor



cc:     Honorable Vargrave Richards President, Legislature of the Virgin Islands




                                                22
                                                                           APPENDIX 4


        STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference            Status                      Action Required

          A.1            Unresolved.      The Legislature of the Virgin Islands should
                                          provide a response to the recommendation
                                          indicating concurrence or nonconcurrence.
                                          If concurrence is indicated, an action plan
                                          should be provided that identifies the target
                                          date and the title of the official responsible
                                          for implementing the recommendation. If
                                          nonconcurrence is indicated, reasons for the
                                          nonconcurrence should be provided.

          A.2            Resolved; not    No further response to the Office of
                         implemented.     Inspector General is required. The
                                          recommendation will be referred to the
                                          Assistant Secretary for Policy, Management
                                          and Budget for tracking of implementation.

          A.3            Unresolved.      The Governor of the Virgin Islands should
                                          provide a response to the recommendation
                                          indicating concurrence or nonconcurrence.
                                          If concurrence is indicated, an action plan
                                          should be provided that identifies the target
                                          date and the title of the official responsible
                                          for implementing the recommendation. If
                                          nonconcurrence is indicated, reasons for the
                                          nonconcurrence should be provided.

      B.l and B.2        Unresolved.      The Governor of the Virgin Islands should
                                          provide a response to each recommendation
                                          indicating concurrence or nonconcurrence.
                                          If concurrence is indicated, action plans
                                          should be provided that identify the target
                                          dates and the titles of the officials
                                          responsible for implementing the
                                          recommendations. If nonconcurrence is
                                          indicated, reasons for the nonconcurrence
                                          should be provided.




                                         23
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                             Internet/E-Mail Address

                                      www.oig.doi.gov



                     Within the Continental United States

U.S. Department of the Interior                         Our 24hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U. S . Department of the Interior                       (703) 235-922 1
Offhx of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                         (671) (X7-6060
Office of Inspector General
North Pacific Region
415 Cllalan San Antonio
Bakj Pavilion, Suite 306
Tamuning, Guam 96911
